                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF MVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I07100045                                                                        Page 1 of 1



                  OIG received an allegation that an NSF employee1 routinely used her NSF telephone
          excessively and that the majority of her calls were for personal rather than business purposes. We
          reviewed the employee's phone records, time sheets, and verbal and written statements, and
          determined the employee excessively used NSF resources, specifically her office telephone, during
          official government time for personal phone calls, in violation of NSF and Office of Government
          Ethics policies. Our report of investigation recommended NSF take appropriate action to address the
          employee's behavior.

                 NSF reviewed our report and concurred with its statements. NSF sent the employee a letter of
          reprimand, a copy of which is to remain in her personnel file for a period not to exceed three years.

                This memo and the attached Report of Investigation constitute the case closeout.
          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
   National Science Foundation
   Office of Inspector General




                      Confidential
                  Investigation Report
                Case Number I07100045
                   October 24,2008



This Confidential Investigation Report is the property of the NSF O I G and may be disclosed outside
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $$552,552a.

                                                                                  NSF OIG Form 22b (11/06)
     Please note: This report contains confidential personal information and it should be disclosed
     only to individuals who must have knowledge of it? contents to facilitate NSF's assessment
     and resolution of this matter. Unauthorized disclosure may result in personal criminal
     liability under the Privacy Act, 5 U.S.C. 5 552a(i)(l).




    Summary

   Our investigation into an allegAtion concerning a National Science Foundation (NSF) employee1
   determined that the NSF employee excessively used NSF resources, specifically her office
   telephone, during official government time for personal phone calls. We identified a violation of
   current NSF Policy regarding Personal Use of NSF S Technology and Communication Resources
   ("NSF's Personal Use Policy") in NSF Bulletin 04-1 1,' dated November 3,2004, and of the
   expectations of an NSF emplo ee discussed in NSF's Manual 15, Conflicts of Interest and
   Standards of W i c a l Conduct! We suggest that NSF take appropriate action to address the
   employee's behavior.

    OIG Investigation

    A. Background

   NSF OIG received an allegation that an NSF employee routinely used her NSF telephone
   excessively and that the majority of her calls were for personal rather than business purposes.
   We obtained and analyzed the employee's outgoing and incoming telephone records for the 15-
   month period of August 2006 to October 2007 ("initial period") and later for the 8.5-month
   period of November 2007 to July 2008 ("second period").4

   Based on our review, we noted that the monetary and time costs associated with one telephone
   number (Telephone umber)' appear to be excessive use of NSF resources. This Telephone
   Number is the direct line of the employee's colleague,6 the founder of an Annapolis-based
   business7



- ;Tab I . The document is available at http://www.inside.nsf.gov/pubs/issuances/ibO41 I rev.pdf
                                                              -    .
    Tab 2 contains NSF Manual 15, 9 56(d). The complete document is available at
   http://www.nsf.gov/pubs/manuals/manual15.pdf.
The following chart illustrates the employee's calls to and from the Telephone Number and their
monetary and time costs, during the initial period reviewed:

                                        August 2006 to October 2007




As illustrated, the direct cost of calls made to the Telephone Number totaled $545.02,' 52.99%
of the employee's total telephone charges during that period. Moreover, the employee spent the
equivalent of 26 work daysYg(204 hours and 3 1 minutes), and 38.49% of the total time spent on
the telephone during that period, on calls to and from that Telephone umber." Thus in addition
to the calls' $545.02 direct cost, the salary the employee earned during the time on the telephone
with that one Telephone Number is $10,074.84." Furthermore, the employee's ITAS records12
indicate that she also accrued 223 credit hours during this period.'3




   The direct cost of the calls for both periods was calculated based on the charges listed on the TABS.IT phone
records.
   The number of days for both periods was calculated by dividing the hours and minutes spent on the phone (204.5
hours) by an 8 hour NSF work day.
lo The total time spent on the telephone does not exclude time she spent on the telephone during the employee's
lunch break; however a review of the telephone records contained in Tabs 3 and 4 indicates that the calls are made
throughout the employee's tour of duty, rather than confined to any one consistent time period.
" Tab 6 contains a Memorandum of Investigation (MOI) in which OIG calculates the employee's salary earned
during the time spent on the telephone during that initial period.
l 2 Tab 7 contains initial period ITAS records.
l 3 We note tha-sed            credit hours earned during this period.
        We performed a similar analysis for the second period of phone records (November 2007 to July
        2008) and found that excessive telephone calls continued to be made to and received from the
        Telephone Number during the employee's official tour of duty. The chart below illustrates
        telephone usage and associated monetary and time costs:

1                                               November 2007 to July 2008




I
        As shown, during this period, the direct cost of calls made to the Telephone Number totaled
1       $244.88,46.61% of the employee's total telephone charges during that period; and the employee
        spent the equivalent of 11 work days, (90 hours and 35 minutes),14and 29.67% of the total time
        spent on the telephone during that period, on calls to and from that Telephone Number. Thus in
        addition to the calls' $244.88 direct cost, the salary the employee earned during the time on the
        telephone with that Telephone Number is $4,495.09." Furthermore, the employee's ITAS
        records16 indicate that she also accrued 50.75 credit hours during this period.17 Although these
        percentages are lower than thosp from August 2006 to October 2007, the evidence continues to
        illustrate excessive telephone usage during the employee's tour of duty.

        Although the employee and the Colleague had NSF-related business dealings, OIG's review of
        the employee's NSF email account revealed that the employee was also in consistent email
I       contact with the Colleague on matters unrelated the employee's NSF duties. An email dated
I
        April 25,2007, sent from the Colleague to the employee indicates the time consumed by and the
    /
        personal nature of these calls. The Colleague writes:



        l4 The number of days for both periods was calculated by dividing the hours and minutes spent on the phone (90.5
        hours) by an 8 hour NSF work day.
        I S Tab 6 contains a second MOI in which OIG calculates the employee's salary earned during the time spent on the
        telephone during the second period.
        16
            Tab 8 contains second period ITAS records.
        I' We note tha-used         credit hours earned during this period.
              My dear -I love you but am overwhelmed with the phone time you seem to
              require. I get nothing done and am totally exhausted at the end of each day.
                                                                     ,
              I cannot sit on the phone for hours ... while you go over the same issues again and
              again. I need to have time to do the work required under my contract with [the
              company], take care of a fairly large house by myself, be a mother and
              grandmother to my immediate family and find time to participate in the
              organizations and business I am a part of. You would be amazed how much have
              [sic] done today b i staying off of the phone. Furthermore I made several very
              important phone calls to the county. [The company's] participants and business.. .
              calls I have not been able to make as I have been on the phone with you.'8

The employee's response to the email also appears to indicate that the matters discussed
were personal rather than NSF-related:

              The last thing I need before dealing with my Dad's doctors, my Dad (and Mom)
              themselves, and [A] and [B] is not to have your support. . . . so much that's very
              hard to deal with has happened in my life, my Dad's situation, the situation here
              at NSF . . . the situation with [A:I/[B] . . .19

B. Interview of Employee

OIG interviewed the employee, accompanied by a union representative,20on July 30,2008,
regarding her telephone usage.21 Prior to the interview OIG provided the employee with a copy
                                                               '-&
of a statement indicating that the interview was volunta (the Garrity Warning) and that she had
the right to union representation (Weingarten Warning), which she reviewed, read, and signed.

The employee said her typical work hours are Monday through Friday, 9:30a-6:OOp. Due to her
workload, she rarely leaves the office during lunch. She arrives early and/or leaves late when
required for meetings or special projects, and occasionally works on weekends or holidays to




The employee recognized the Telephone Number as that of the Colleague, whom the employee
had met while they were both employed b             y She said they are often in contact regarding
NSF-related and professional activities, and that the communication is primarily related to work-
related outreach activities. She said the Colleague often serves on NSF "panels;"23 is a member



''Tab 9.
l9   Tab 9.
20
                                                                                             as present
during the interview.
" ~ a 10b contains the MOI from the interview.
22
   Tab 11 contains both the signed and executed Garrity Warning and Weingarten Warning.
23 These panels do not comprise what NSF usually refers to as "panel."
of the same professional.societies as she;24and often presents with her at various conferences,
such as an annual panel the employee organizes at a professional society.25 The employee noted
that the call volume diminished over time because they were working less together. She
maintained throughout the interview, even after reading the aforementioned April 25,2007
email, that the calls were business-related.

The employee had never been warned regarding excessive use of NSF resources, and was unsure
why she would have been. She was unsure whether she had ever seen NSF Bulletin No. 04-1 1,
but confirmed that she does the annual mandatory Computer Security Awareness training?

C. Employee's Statement

Although we offered the employee the opportunity to provide a sworn statement at the time of
her interview, she chose not to do so. Instead, she requested time for further reflection and opted
to provide a statement at a later date. At the employee's request, we provided her with copies of
the phone records to better enable her to address the matter.

The employee's statement27included an email from the Colleague in which the Colleague
described her relationship with the employee. The Colleague wrote:

            [The employee] and I are in contact often regarding joint efforts to foster new
            career opportunities for scientists, about inter-agency reports, reviews, and
            briefings, and about scientific developments and finding ways to communicate
            these developments to                                and others.28

However, the employee did not provide hrther explanation, in either her cover letter or her
statement's attachments, pertaining to her excessive calls made to and received from the
Telephone Number, or the emails that indicated that calls to the Telephone Number were not all
business-related.

D. Employee Pattern of Abuse

The employee was the subject in a 2003-2004 OIG investigation into the abuse of her NSF travel
credit card. In that case, we determined that the employee had misused her travel card in the
amount of $5,500.34, some of which was charged after she received 5 letters concerning her
misuse of her NSF travel card.29 At that time, the employee explained that her actions were
caused by life events, most notably the cost of medical care for a number of serious medical

24   These societies i   n      c      l     u      d      e      d)-(h
                                                                      et

m e r n a t e s between discussing
26 Tab 12 contains an MOI of the employee!s IT Computer Security Training history, which indicates that she
completed the 2003,2004,2006, and 2007 trainings. She completed her 2008 training after our interview.
   Much of the employee's response was not pertinent to the current allegation. We thus included in Tab 13 only the
relevant content. The entire response however is available in OIG for review.
28 Tab 13.
29 Tab 14 contains documents related to that previous investigation and the resulting sanction, including the 5 letters
dated January, March, April, July, and August of 2003. The travel card was suspended effective August 27,2003.
issues she faced. Although the employee said she paid each month's credit card bill in full, her
statements indicated 19 past-due payments.30 She acknowledged her actions were wrong and
apologized for her behavior. We referred the matter to NSF which suspended the employee from
duty and pay for 5 days.31

E. Applicability of NSF Policy

Pursuant to NSF's Personal Use Policy contained in NSF Bulletin 04-1 1, NSF staff members are
authorized to use NSF technology and communication resources for occasional personal use:

           The technology and communication resources specified below are authorized for
           occasional personal use (excluding private business use) when the additional cost
           to the government is negligible and when the personal use is of reasonable
           duration and during personal time as much as possible so there is no interference
           with official business . . . Any personal use of the agency's property is subject to
           the overriding expectation that employees will give the government a full day's
           labor for a full day's pay."32

In regard to telephone usage, the policy states:

           Government telephone systems and facsimile machines are authorized for
           personal use if the following criteria are satisfied: ( I ) the use does not adversely
           affect the performance of official duties by the employee or organization; (2) the
           use is of reasonable duration and frequency; and (3) calls placed are within the
           local commuting area.33

NSF's Personal Use Policy also creates express limitations on personal use, citing the Federal
CIO Council's 1999 Model PolicyIGuidance on "Limited Personal Use" ("Model ~ o l i c ~ "for    )~~,
examples of inappropriate uses. One such inappropriate use delineated in the Model Policy
states: "Any use that could generate more than minimal additional expense to the government."35

Additionally, NSF's annual mandatory Information Technology online security training includes
information regarding NSF's IT Security "User Responsibilities-Rules of ~ e h a v i o r . "NSF
                                                                                           ~~
users agree to comply with the rules, one of which states: "I understand that NSF IT resources,
includin e-mail accounts, are for authorized Government use only and in accordance with NSF
p01icy.~   8


     Tab 14, pg 2 of "Notice of Proposed Suspension."
'' A review of the employee's personnel file reviewed no additional, relevht issues.
'O


'' ~ a 1.b
'' ~ a 1.b
   Tab 15.
'' ~ a 15.b
34


   Tab 16.
'' Tab 16.
36
    NSF employees.are also bound by ethical rules and regulations, promulgated by the Office of
    Government Ethics. OGE Regulations, 5 CFR Section 2635.705 states: "An employee shall use
J
    official time in an honest effort to perform official duties."38

    This regulation is embodied in NSF Manual 15, Conflicts Of Interest and Standards of Ethical
    Conduct, which also addresses the requisite behavior of an NSF employee: "Unless specifically
    authorized otherwise, you must use your official time only in an honest effort to perform official
    duties. . . ."39

    OIG Conclusions

    Based on its analysis of the employee's phone records, OIG concluded that the employee
    knowingly violated NSFYstelephone use policies, as detailed in NSF Bulletin 04-1 1 Personal
    Use of Policy for NSF Technology and Communication Resources, and NSF 's IT Security User
    Responsibilities-Rules of Behavior. By using substantial official time for unauthorized and
    unofficial telephone calls and by accruing credit hours during these periods of excessive
    telephone usage, the employee violated the ethical standard requiring her to use official time to
    perform official duties, as stated in OGE regulations and NSF Manual 15. OIG concludes that
    the employee has a duty to abide by these and other ethical conduct standards, and failed to do
    SO.


    In addition, because the employee has been the subject of an investigation in 2003 regarding
    misuse of government resources, she should have been especially vigilant in ensuring that her
    current actions were in compliance with NSF and federal regulations.

    Based on the evidence, we conclude:

    1. The employee spent a considerable amount of official government time using her NSF
    telephone for unofficial calls. This violates NSF IT policy.
                       I

    2. The employee misused government time and resources. This violates ethical standards of
    conduct and the professional standards detailed in OGE regulations and NSF Manual 15.

    OIG Recommendations

    Based on the conclusions outlined above, we recommend that the NSF proceed with
    administrative actions that are appropriate and consistent with previous similar incidents with
    regard to an NSF employee:

    a. Who misuses NSF telecommunications services in violation of NSF and federal policies;

    b. Whose misuse of official time for unofficial purposes violates the government's standards of
    ethical conduct.


    3s   Tab 17.
    39   Tab 2.
Attachments

Tab 1: NSF Bulletin No. 04-1 1, Personal Use of NSFYsTechnology and Communication
       Resources
Tab 2: NSF Manual 15, Conflicts Of Interest and Standards of Ethical Conduct
Tab 3: Phone Records from August 2006 to October 2007
Tab 4: Phone Records from November 2007 to July 16,2008
Tab 5: Ocean Equities Websites
Tab 6: Memorandum of Investigation (MOI) - First Period Earned Salary / MOI - Second
        Period Earned Salary
Tab 7: August 2006 to October 2007 ITAS Records
Tab 8: November 2007 to July 16,2008 ITAS Records
Tab 9: Email from                   to Employee dated April 25, 2007
Tab 10: MOI - Interview with employee, dated July 3 1, 2008
Tab 11: Executedhigned Garrity Warning and Weingarten Warning
Tab 12: MOI - Employee's completion of IT Security Training
Tab 13: Relevant Portion of Employee's Statement, dated August 26, 2008
Tab 14: Documents Related to Previous Investigation
Tab 15: Federal CIO Council's 1999 Model Policy/Guidance on "Limited Personal Use"
Tab 16: NSF IT Security User Responsibilities-Rules of ~ e h a v i o r
Tab 17: OGE Regulation, 5 CFR Section 2635.705
